No. 20-6999
IN THE
Supreme Court of the United States

Kannha Bounchanh,
Petitioner,
v.

Washington State Health Care Authority (HCA) et al,
Respondents,

Petition for Rehearing a Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit

Kannha Bounchanh
117 N. Tacoma Avenue
Apt.#803
Tacoma, WA 98403
(253) 272-0905

RECEIVED
APR 2 0 202'
9rE&aF<BiaS&

I, Kannha Bounchanh (Petitioner), am disagreed with your decision on March 22, 2021
because you have denied my Petition and Amended Petition for a Writ of Certiorari (refer
denial notice dated March 22, 2021 from Mr. Scott S. Harris, Clerk), and per the return
telephone call from Ms. Susan Frimpong on Friday, March 26, 2021 at 7:17AM (Pacific
Time) that on March 22, 2021 the petition denied based on a “discretionary denied and no
reason for deny and if you want to you can file a motion for Rehearing In Petition.” And,
per the notice dated April 5,2021 from Ms. Susan Frimpong, Case Analyst, at the Supreme
Court and per her request, this is my correction and my petition for rehearing with good
faith and not for delay by this court and the honorable nine justices for the following valid
legal reasons:
1. I am the United States citizen, disabled person, and being protected by the Title VII of
the Civil Rights Act of 1964, ADA, ADAAA2008, EEOC rules of law and the 14th and 5th
Amendments of the United States Constitution as case name: Bostock v. Clayton County
and two other cases that the Supreme Court of the United States has granted their
petition for a writ of certiorari and heard and ruled in favor of their claims or cases
(Bostock v. Clayton County, Georgia, no. 17-1618 petition for a writ of certiorari to the
United States Court of Appeals for the Eleventh Circuit; Together with No.17-1623,
Altitude Express, Inc. et al. v. Zarda et al., as Co-Independent Executors of the Estate of
Zarda, on certiorari to the United States Court of Appeals for the Second Circuit, and
No. 18-107, R. G. .& G. R. Harris Funeral Homes, Inc. v. Equal Employment
Opportunity Commission, et al., on certiorari to the United States Court of Appeals for
the Sixth Circuit; argued October 8,2019—Decision on June 15,2020) and my source is
from Cornell Law School and its website. This is my petition for rehearing with good
-1-

faith and not for delay to act with honest intent to act without taking an unfair advantage
over another person or to fulfill a promise to act, even when some legal technicality is not
fulfilled. I am respectfully requested this court and your honorable nine justices to
uphold the Federal Rules of law and the 14th and 5th Amendments of the United States
constitution, and protect my human rights, legal rights, due process, and equal justice.
2. The Denial Notice dated March 22, 2021 states that and I quote “Dear Mr. Bounchanh:
The Court today entered the following order in the above-entitled case: The petition for
a writ of certiorari is denied.” The court’s order does not tell me who (justices and how
many and anyone else) participated in the Conference on Friday, March 19, 2021 and
does not explain to me why my Petition from December 3, 2020 and Amended Petition
for a Writ of Certiorari from January 13,2021 are denied. I am entitled to my fair Due
Process and Equal Justice Process under the above rules of law and the United States
Constitutions. For this reason, my petition should not be denied by this court because
there is no lack of jurisdiction; and the court should have granted it under U.S.590 code.
3. A Clerk at this Clerk’s Office has filed and entered the final decision date (August 7,
2020) by the Ninth Circuit court. It should have been a decision on November 3,2020 by
the honorable judges Schroeder, Hawkins, and Lee in Docket#61, which is their final
court order. The November 3, 2020 has also been confirmed by Ms. Stephanie (COVID
19 CA09Operations Supervisor at the 9th Circuit court, her email dated December 1,
2020). There is no time-barred and no lack of jurisdiction and for this valid legal reason
this court cannot deny my petition based on U.S. 592 code on March 22,2021.
4. The panel of three judges’ decision on November 3,2020 occurred after I had complied
with the Ninth Circuit’s court order (Docket#22, March 4,2020 by the honorable Canby

-2-

and Gold) for me to filing an Optional Reply Brief to multiple answering briefs by other
counsels. I complied and filed my Optional Reply Briefs (Docket#49, 51,52,53,54,55,56,
and 57) with the Ninth Circuit court without missing deadline. The Ninth Circuit court
judges accepted and granted above Optional Reply Brief filings, except they have
switched judges to my case and the panel of three new judges changed their mind to
helping me because they have decided to discriminate against me because of who I really
am and where I came from. It is wrong for the panel of three judges to exclude the
honorable Canby and Gould from the panel of discussion and decision making on
November 3, 2020. If the 9th Circuit court did not change the panel of judges and the
court respected and honored the already granted Amended Cross-Appeal on March 4,
2020,1 believe that the honorable Canby and Gould would have been allowed my fair
Due Process and the Equal Justice Process and gave me an opportunity to present my
case at the oral hearing and that I would have won my case at the United States Court of
Appeal’s oral hearing level. Furthermore, it is wrong and illegal for the honorable judges
Schroeder, Hawkins, and Lee to discriminate against me and decided to take side with
the respondents and dismissed all respondents from the already granted Amended CrossAppeal on March 4,2020 without allowing me my fair Due Process and the Equal Justice
Process under the 14tb and 5th Amendments of the United States Constitution and my
legal rights for the court’s hearing. By doing so, the honorable Schroeder, Hawkins, and
Lee have violated my human rights and legal rights under the 14th and 5th Amendments
of the United States Constitution, my fair due process and equal justice.
5. I did not miss my 60 days filing deadline for the Amended Petition for a Writ of Certiorari (refer
to letter dated January 5, 2021 from Ms. Susan Frimpong at the Clerk’s Office). The 60 days
begins on January 5,2021 and I filed my original petition on December 3,2020 and my Amended
-3-

Petition for a Writ of Certiorari, and I filed my second Amended Petition for a Writ of Certiorari
on January 13, 2021. There is no time-barred or missing deadline. The Proof of Service and
Compliance for Words Limitation have been notarized and served.
6. I mailed many pieces of evidence (Appendix and Joint Appendix) in petition that are
beyond a reasonable doubt to this court on December 3,2020; January 5,2021; January
13, 2021(Exhibits: 1A to 129A and IB to 39B); February 5, 2021; February 8, 2021;
February 17, 2021(Exhibits: 185A to 385A); February 19, 2021(other exhibits
submission); March 3, 2021 and other parties’ counsels, Mr. Bob Ferguson, the Clerk’s
Office of the Supreme Court of the United States, and Solicitor General for the
Department of Justice). I mailed them via certified and priority mail. 1 believe these
pieces of evidence have not been addressed and taken into a consideration by this court.
I should not be discriminated by any member of this court simply because I am an Asian
male or Pacific Islander, my sexual orientation or who I really am or where I came from.
Again, I am being protected by the above federal rules of law and the United States
Constitutions as for the case of Bostock v. Clayton County and two other cases.
7. I am respectfully requested that your honorable Chief Justice and Associated Justices to
review my petition or claim or case again and give me a chance or an opportunity to
present my case under the fair Due Process and Equal Justice Process and the rules of
law and the United States Constitutions. I have become the victim by the same employer
(DSHS) for the 4th time in my professional career of nearly 25 years from August 9,1991
to June 11,2015. The bully, retaliation, and discrimination happened to me the first time
in 2000, second time in 2006 including the sexual harassment by my social services
supervisor, third time in 2015 and 2016 combined, and the fourth time in 2018. DSHS
and HCA employers have set me up to fail miserably; they teamed up and betrayed me
-4-

after we fired our DSHS employee. I tried to return to work for DSHS again but my 31
job applications that I submitted to the State of Washington in 2018 have been rejected
and some were not referred to hiring managers even though I have had excellent work
histories for nearly 25 years with excellent Employee’s Annual Performance Evaluations
by many of my supervisors including 7 years in management position and 2 years as
program manager. If some were referred to hiring managers, I was not given an
opportunity for a job interview (Docket#91 and 92 with the U.S. District Court). Instead
of rehiring me, the respondents bullied, retaliated, and discriminated against me.
8.

The panel decision by the honorable judge Schroeder, Hawkins, and Lee at the 9th
Circuit court are conflicted with the U.S. Supreme Court decision, 6 to 3 ruling (Bostock
v. Clayton County, 590 U.S.___(2020), was a landmark United States Supreme Court
civil rights case in which the Court held that Title VII of the Civil Rights Act of 1964
protects employees against discrimination because of their sexual orientation or gender
identity). The honorable judge Schroeder, Hawkins, and Lee’s decision (Docket
number#61, November 3,2020) are also conflicted with the other Untied States Court of
Appeals’ decision (see #1 above). They have violated my fair Due Process and Equal
Justice Process under the 14th and 5th Amendments of the United States Constitution. I
am a Laotian/Asian male and gay and I am a disabled person (Dkt#48 to Dkt#48-3 for
Charges of Discrimination by Nancy Sienko, EEOC Executive Director from 2018,2016
and 2015 combined with this court in the petition and Appendix and Joint Appendix).

9. The honorable Schroeder, Hawkins and Lee’s decision is involved an issue on which the
panel decision conflicts with the Supreme Court of the United States’ decision and the
authoritative decisions of other United States Courts of Appeals that have addressed the

-5-

issues (e.g. the 11th Circuit court states and affirms that "Further more individual may
be held liable for corporate violations and be subject to injunctive relief if the individual
directly participated in the deceptive practices and had an authority to control
defendants," FTC v. Gem Merch 87 F 3rd 466-477, 11th circuit 1986). This above case
reference is in docket no. 58, page 5 to 7 of total of 21 pages, filed date entry August 13,
2020 with the 9th Circuit court in case no. 19-36059.
10. The honorable judge Schroeder, Hawkins, and Lee ignored the fact that 1 received the
abuse, bully, retaliation, and discrimination by the respondents of DSHS, HCA, AGO,
EEOC, WSHRC and AFSCME Union and the discrimination by the United States
District court and all pieces of evidence provided in Appendix and Joint Appendix. For
instance, the United States District Court’s staff hided some evidence from my case who
might be related to or know Mr. Dylan Oxford and Ms. Nicole Rivera, hided evidence
that I was there at Equal Employment Opportunity Commission (EEOC) office in Seattle
on February 5,2016, EEOC lost or destroyed 66 pages of evidence from my file on July
29, 2015 and I had to provide another copy to Ms. Toni Haley on September 16, 2015.
The EEOC Staff at reception refused to assist me and turned me away on February 26,
2019. One of the respondents communicated with my health care provider, colonoscopy
specialist who performed my colonoscopy procedure in 2014 had poked me and damaged
my intestinal organs. I have poor health nowadays because of their bad motives and
intention and negligent. The respondents are responsible for all damages that they have
caused to my good health, good life, professional career of nearly 25 years and good
reputation in many communities. Prior to my employing with HCA employer in July
2013,1 did not have to live in fear on the daily basis for my life and I was not afraid to be

-6-

outside alone, but nowadays I do. I had no problem getting a job prior July 2013. Prior
to my filing and engaging with the Tort’s claim and EEOC complaint process, I did not
receive any bully, retaliation and discrimination by strangers, other people in other
federal and state agencies. Because of some employees or respondents’ bad motives and
bad intention and through their social media and networking, 1 have become the victim
by other staff members of other agencies or organizations or in many communities. DSHS
and HCA employers set me up to fail miserably and they betrayed me and teamed up to
get rid of me after we (DSHS employer and I) decided to fire our DSHS employee.
Furthermore, "they may be liable for monetary damages if they had some knowledge of
the wrongful acts and practices Id. under section 13 (b) of the Act and the court's inherent
equitable powers, the court may order injunctive or equity relief to accomplish justice,"
see U.S. Oil& Gas Corp., 748 F. 2d, 1431,1433-34,11th circuit. This above case reference
is in docket no. 58, page 5 to 7 of total of 21 pages, filed date entry August 13,2020 with
the 9th Circuit court in case no. 19-36059. For a cause of each actions, their respondents
of the five government agencies and the AFSCME union have committed bully,
retaliation and discrimination against me and the upper-management team members
knew about it but did nothing to stop the bully, retaliation, and discrimination (Dkt#31
to 31-1, 264 pages and Dkt#7, 42 pages with U.S. District Court). In fact, the Directors
and supervisors have engaged in this wrongful act themselves (see Dkt#51-1, 22 pages
with the 9th circuit court). And, I reached out to Ms. Jody Costello, HCA Risk
Management who is a supervisor of Mr. Robert Bouffard (new HCA Human Resources
Director who took Ms. Costello's job after she was being promoted and Mr. Michael
Otter-Johnson, HCA Human Resources Supervisor) and they refused to meet with me

-7-

and failed to investigate my personnel issues/matter (Dkt#31,31-1 with U.S. District
Court; and Dkt#33,34 with the 9th Circuit court) that I raised with them. These HCA
upper-management staff members were involved and participated in the wrongful act.
They lied and covered up too many things for issue that matters to my Tort claim and
EEOC charges and when they responded to the AGO's investigators and Ms. Hattie Y.
Reed, the EEOC Automated Office Assistant (Dkt#32,671 pages with the 9th Circuit
court). It turned out that some employees or respondents of DSHS and HCA were
involved and participated in my x-DSHS employee's investigation for discrimination
filing and supported his EEOC charge with WSHRC agency, evidence provided by Ms.
Cherrie Willhide, DSHS Public Records Unit(Dkt#85, 48 pages and Dkt#101-1, page 82
out of 127 pages with the U.S. District court, which is a correspondence by Mr. David
Stillman at DSHS ESA Secretary to Ms. Sharon Ortiz at WSHRC that we did not
discriminate against our x-DSHS employee Mr. Timothy Francis-Moore). It is illegal to
bully, retaliate and discriminate against anyone (Dkt#77-1,7 pages with the U.S. District
Court) and Article 2-Non-Discrimination clause of the AFSCME union's collective
bargaining agreement). The respondents have violated the rules of law when they abused,
bullied, retaliated, and discriminated against me (Dkt#l, 1-1,3-1, 7 amended complaint
of 42 pages with the United States District Court of Western Washington). In the 42 pages
of my amended complaint of April 18,2019(Dkt#16,46 pages, date entry January 31,2020
with the 9th Circuit court), I have listed each cause of actions for my civil lawsuit and
provided copy of Notice of Rights to Sue from December 12,2018 and March 1,2019.1
filed the civil lawsuit within the 90 days on March 6, 2019 and there is no time-barred.
All respondents named in the lawsuit destroyed my life, good health, and good reputation

“8-

(Dr. Ho in Dkt#135, page 7 of 13, October 11,2019 with U.S. District Court) and (Dkt#481, page 14 of 64, Dr. Kinney, with the 9th Circuit court). DSHS employer refused to
provide public records to me (DktfW83 and Dkt#84 with U.S. District court). In addition,
my civil lawsuit was originally being assigned to the honorable judge Theresa L. Fricke
(TLF) on March 6,2019; however, the United States District court has changed its mind
and reassigned my civil case to manage by the honorable Ronald B. Leighton who has
discriminated against me (see Dkt#7,31,31-1, 61-1,100,101-1,143,144,145 with U.S.
District Court and Dkt#48-1,64 pages with the 9th Circuit court). The U.S. District Court
of Western Washington has failed to notify me what was a reason why my civil lawsuit
case was necessary reassigned to the honorable Ronald B. Leighton who discriminated
against me because I am a Laotian male and gay and he refused to recuse himself from
my case (Dkt#143 and Dkt#144, Dkt#145 with U.S. District Court). The staff at the U.S.
District Court also hided some evidences(Dkt#58 with the 9th Circuit court) from my case
(Dkt#61-1,100,101-1 with United States District Court), and also hided evidences that I
was at the EEOC on February 6,2019 (Dkt#34,57 pages with the 9th Circuit court) and I
filed my complaint about them with the U.S. District Court of Western Washington at
Tacoma's supervisor and Mr. Brian T. Moran, the U.S. Attorney (Dkt#100 with the U.S.
District Court and Dkt#31, 9 pages, entry April 6, 2020 with the 9th Circuit court), but
neither one of them has responded to my complaint. The U.S. District Court of Western
Washington at Tacoma, WA has refused to schedule a court hearing for my jury demand
trial (Dkt#l, 1-1,3-1 and 7 with U.S. District court). The U.S. District court did not allow
my due process based on LCR 1(d) rule and FRAP (a) (4) rule and follow the court legal
proceeding by allowing my case to be heard according to the rules of law and the 14th, 7th

-9-

and 5th Amendments of the United States Constitution. By doing so, the U.S. District court
has violated the above United States Constitutions and the LCR 38 for "Right to a Jury
Trial; DEMAND (P.68 of 156), and the LCR 39.2(m)-Jury Trial before seven jurors,"
P.79of 156. The U.S. District court not only refused to schedule a court hearing for my
civil case, but it also hided some evidence from my case (Docket#61,100, and 101 with
the U.S. District court). By doing so, the U.S. District Court has violated the LCR1 (d),
Non-Discrimination. By doing so, the U.S. District court has violated the 14th, 7th ,and 5th
Amendments of the United States Constitution. I can proof my case only if the U.S.
District court has allowed my due process and the equal justice and allowed my case to
be heard and have many pieces of evidence to be heard in Docket#! thru Docket#158.
Furthermore, the law also states that "Summary judgement can be entered on a claim
only if it is shown there is no genuine dispute as to any material fact and a movant is
entitled to judgement as a matter of law," FED. R. CIV. P.56(a). For my civil lawsuit,
the U.S. District court did not allow my fair due process and the equal justice process,
there was no summary judgement because there was no court hearing allow by the court.
By doing so, the U.S. District has violated my fair due process and the Local Civil Rule 1
(d). I am being punished by the legal system and injustice of U.S. of America.
11. I have mentioned in the petition that I have submitted many pieces of evidence in the
docket numbers (Docket#! to Dkt#158) with the District Court; and Dkt#l to Dkt#18 for
case no: 19-35801 and Dkt#l to Dkt#60 with this case no: 19-36059 with the Ninth
Circuit) and copy of all Case Summary for case no. 19-36059. The Notice of Rights Sue
that I have received from EEOC and date stamped on December 12,2018, and another
Notice of Rights to Sue date on March 1,2019. I filed my civil lawsuit on March 6,2019

-10-

and there was no time-barred. Two Charges for Discrimination by WSHRC/EEOC
Nancy Sienko, EEOC Executive Director (Dkt#48 with the 9th Circuit court). My letter
date January 14,2019 that 1 did not want my EEOC charge for 2018 closed and I still
wanted to meet and interview by Sharon Ortiz, WSHRC Executive Director. Ms.
Sharon Ortiz refused to the fair, thorough, and objective investigation and there was no
interview occurred in mid-January 2019 as WSHRC agency and its respondents had
promised me. This is because for a reason that WSHRC and its employees or
respondents had already represented my x-DSHS employee (see Dkt#85,48 pages with
the U.S. District court, which is correspondence from Mr. David Stillman to Ms. Sharon
Ortiz at WSHRC). Furthermore, why did Ms. Nancy Sienko, EEOC Executive
Director, allow Ms. Hattie Y. Reed, EEOC Automated Office Assistant to conduct my
EEOC charges investigation instead of an EEOC trained investigator, EEOC attorney
or by Ms. Toni Haley, EEOC Attorney knowing that Ms. Hattie Y. Reed and HCA
employer made up her lie(e.g. She said my x-employee is Mr. Thomas Moore instead of
Mr. Timothy Francis-Moore). The respondents lied and covered-up the real issue that
matters to my EEOC charges and Tort’s claim (671 pages from AGO's public record by
La Donna Jensen). Many of my witnesses(Kathy King, Nancy Hite, Gary Blair and
Mary O’Hare) had not been called in for the Tort’s claim and EEOC charges’
investigations, except Mr. Gary Blair. Mr. Gary Blair informed me in January 2019
that he had cooperated with EEOC investigation and told Equal Employment
Opportunity Commission (EEOC), but his witness statement did not even mention in
the EEOC investigative report by Ms. Hattie Y. Reed. Why did Ms. Nancy Sienko,
EEOC’s Executive Director, fail to investigate my EEOC charge from 2018 after she

-11-

knew that WSHRC and its employees already have discriminated against me and
because they already represented my DSHS employee? In July 2013, Mr. Scott Palafox
and Mr. Dylan Oxford questioned me why I did not come to work for them clean and
that I had to bring my personnel or work issue with me from DSHS. In February 2014,
my HCA supervisors were angry with me after I had informed them that I had been
called in by Mr. Myron Toyama, DSHS HRD Investigative Unit Supervisor, for an
investigation regarding my x-employee. HCA employer refused to train me for my
MAPS3 position when they switched my job duties from: manage out of state contracts
for different hospitals, and manage bills and bills payment for out of state hospitals,
EAPG and hospital based clinic researches for my supervisors, and manage the
subcommittee work group meetings from July 2013 to October 2014 while Mr. Gary
Blair managed and performed my MAPS 3 duties because there was no budget for his
Ambulatory Surgery Center(ASC) program due to the state budget cuts. My supervisor
cancelled the Medical Coding Course Training in February 2014 because they were
angry with me. My HCA Training record and Professional Development Plan (PDP)
that Mr. Dylan Oxford signed in September 2013 and again in October 2014 do not lie.
I was being forced to work alone without any job required skills training for my
MAPS3 position. I was being lied to by Mr. Oxford that there were no courses available
to me and later I have found out from Ms. Nicole Rivera, HCA HRD Training
Coordinator when I met with her on March 26,2015 at 11:00 AM in the HRD Break
Room from 11:00AM to 12:18PM and that is when she told me that the SQL, Excel,
BATS and many other trainings were available and my supervisor is supposed to
register me to attend when they first hired me in 2013. Ms. Jean Bui refused to approve

-12-

the Excel, BATS and SQL courses for me after she met with Mr. Scott Palafox at 2:00
PM and my meeting with her was at 3:00 PM on March 26,2015 because they were too
angry. I told Ms. Rivera about the abuse, bully, and discrimination that I had received
by Andrew Steers, Dylan Oxford and Jean Bui and Mr. Oxford refused to discipline
Mr. Steers because he is his friend. I returned to EEOC on February 5,2016 because
Ms. Toni Haley requested additional evidence from me and that is when I have found
out from Issac Olive, EEOC Receptionist, that he could not find any case or any case
narrative notes from the EEOC computer and eveiything had been deleted from the
EEOC computer about my EEOC charges. That is when Issac called to Mr. Todd the
supervisor. Todd then sent Ms. Haley to come out to see me. I also received the
discrimination by the AFSCME union and its employees or defendants (Dkt#31-1,264
pages; Dkt#101-1, the email exchanges between me and Perry Gordon, Kurt Spiegel,
and Jason Watson) and my proofs that AFSCME Union and its employees have
discriminated against me, but no problem helping my x-DSHS employee who is a white
male and not gay. The Article 2 of the Collective Bargain Agreement (CBA) states that
it is illegal to discriminate against anyone and under the Article 65 of CBA, employee
rights and Article 65.5,1 have my employee’s rights to ask for a union representation
by the AFSCME Union Representative. Why did the AFSCME Union represent my xemployee after he was fired? In addition, the AGO and its employees or respondents
have discriminated against me and they have excluded me from my Tort's claim
investigation. The AGO's investigators and HCA employer lied and covered-up
because the AGO investigators (Ms. Leigh J. Swanson and Mr. Stephen (Steve) Weeks
believe my HCA employer that I was not qualified for my MAPS 3 position, which is a

-13-

program manager position. The AGO’s investigators believed my HCA employer
without doing a fair, thorough, and objective investigation for my Tort’s claim. I then
filed an appeal and the complaint for the discrimination by AGO and its respondents. I
received the email correspondence from Mr. Gregory Silvey, AGO’s Attorney on April
11,2019 that he would investigate and respond to my complain and reconsideration,
but he failed to investigate my complaint. While the DSHS, HCA, WSHRC, EEOC and
AFSCME Union had no issue or problem to assist my x-employee (who is a white male
and not gay) after he was fired by me and DSHS employer, but they refused to assist me
and represent my Tort’s claim, and my EEOC charges from 2015 and 2016 combined
and 2018.
12.1 am requested that this court and your honorable nine justices reviewing all pieces of
evidence listed in the above number 1 to number 12 and take them into a
reconsideration for your decision and grant my petition for rehearing.
13. For all above valid legal reasons, I respectfully request that this court and your
honorable nine justices grant my petition for rehearing with good faith and not for
delay my claim or case. I respectfully dem;
Executed on April 10,2021

7

for my due process and justice.

•4&
Kannha Bounchanh
117 N. Tacoma Avenue Apt.803
Tacoma, WA 98403
(253) 272-0905

-14-

